TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 A Budget and Additional Business Measures
                    Would Help the Criminal Investigation
                       Division Better Administer Its
                          Counterterrorism Efforts



                                       November 21, 2008

                              Reference Number: 2009-10-017




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2(f) = Risk Circumvention of Agency Regulation or Statute (whichever is applicable)
 2(g) = Information that, if disclosed, could reasonably be expected to endanger the safety or life of any
 individual


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               November 21, 2008


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – A Budget and Additional Business Measures
                                 Would Help the Criminal Investigation Division Better Administer Its
                                 Counterterrorism Efforts (Audit # 200710027)

 This report presents the results of our review of the Criminal Investigation (CI) Division’s1
 efforts involving terrorist-related financing activities. The overall objective of this review was to
 evaluate the CI Division’s efforts to assist in the identification and investigation of
 terrorist-related financing activities. Although the CI Division supports the Federal Bureau of
 Investigation on counterterrorism investigations, it also works with the Departments of the
 Treasury and Justice and other law enforcement partners to enforce tax laws and other criminal
 statutes. This allows the Federal Government to consider potential tax or other financial-related
 charges in an effort to disrupt and dismantle the financial capabilities of terrorist organizations.
 This audit was conducted as part of the Treasury Inspector General for Tax Administration
 Fiscal Year 2008 Annual Audit Plan.

 Impact on the Taxpayer
 Investigating terrorism and terrorist-related financing activities is necessary to protect the
 United States, its citizens, and its allies. While this audit did not evaluate the CI Division’s
 investigation activities, we determined that the CI Division can improve the monitoring and
 management of its counterterrorism activities by accurately identifying and tracking additional
 business measures, establishing a budget, and tracking expenditures. These improvements will
 enable the Division to better assess its contributions and ensure that appropriate resources are
 applied to counterterrorism efforts. In addition, if feasible, use of a more comprehensive

 1
     See Appendix V for a glossary of terms.
                        A Budget and Additional Business Measures Would Help the
                           Criminal Investigation Division Better Administer Its
                                         Counterterrorism Efforts


watch list2 when screening Individual Taxpayer Identification Number (ITIN) applications might
improve the Internal Revenue Service’s (IRS) ability to identify individuals potentially involved
with terrorist-related financing.

Synopsis
Through our interviews, we determined that the CI Division is coordinating well with key
stakeholders, including the Federal Bureau of Investigation, the Departments of the Treasury and
Justice, and the IRS Tax Exempt and Government Entities Division and Wage and Investment
Division, on counterterrorism leads and investigations. However, the CI Division can do more
administratively to improve its ability to oversee its counterterrorism efforts. First, it can
improve the ability to assess the effectiveness of the IRS Counterterrorism Lead Development
Center by accurately identifying and tracking additional business measures. Second, it can
ensure that sufficient resources are allocated to its counterterrorism program by more fully
tracking expenditures and developing a budget for internal use. Finally, the IRS might be
missing an opportunity to identify additional individuals potentially involved with
terrorist-related activities by not using a more comprehensive terrorist watch list when
screening ITIN applications.

Recommendations
We recommended that the Director, Narcotics and Counterterrorism, CI Division, 1) establish
additional business measures to assess the value of the Counterterrorism Lead Development
Center’s contributions to the counterterrorism program, 2) improve the type of closed case
information captured to more accurately measure cycle time, and 3) more fully track
expenditures involving counterterrorism activities to assist in the development of a budget for
internal use. We recommended that the Chief, ITIN Program, Wage and Investment Division,
coordinate with applicable stakeholders to evaluate the feasibility of using Terrorist Screening
Center information when screening ITIN applications to improve the identification of individuals
potentially involved with terrorist-related activities.

Response
IRS management agreed with all of our recommendations. The CI Division will establish
additional business measures to better show the impact of its counterterrorism work and develop
a strategy to improve the type of closed case information that the Lead Development Center
captures to more accurately measure cycle time. Also, the CI Division will explore the


2
    See Appendix IV for details.
                                                                                                2
                  A Budget and Additional Business Measures Would Help the
                     Criminal Investigation Division Better Administer Its
                                   Counterterrorism Efforts


possibility of establishing a system to track expenditures related to counterterrorism activities
that should provide management with the ability to make informed decisions relating to the
development of a budget for internal use. In addition, the Chief, ITIN Program, Wage and
Investment Division, will determine and then coordinate with the appropriate internal and
external stakeholders to evaluate the feasibility of vetting ITIN application information against
different terrorist watch lists to improve the identification of individuals potentially involved
with terrorist-related activities. Management’s complete response to the draft report is included
as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




                                                                                                    3
                         A Budget and Additional Business Measures Would Help the
                            Criminal Investigation Division Better Administer Its
                                          Counterterrorism Efforts




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          The Criminal Investigation Division Effectively Coordinates
          With Stakeholders.........................................................................................Page 5
          The Criminal Investigation Division Can Improve Its Ability
          to Assess the Results of the Counterterrorism Lead Development
          Center............................................................................................................Page 7
                    Recommendations 1 and 2: ..............................................Page 8

          Establishing a Budget and Tracking Its Expenditures Would Help
          the Criminal Investigation Division Ensure That Counterterrorism
          Activities Are Properly Funded ....................................................................Page 8
                    Recommendation 3:........................................................Page 10

          Matching Individual Taxpayer Identification Number Application
          Information Against the Terrorist Screening Center Watch List
          Could Be Beneficial......................................................................................Page 10
                    Recommendation 4:........................................................Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Terrorist Screening Center and Office of Foreign
          Assets Control Watch List Information ........................................................Page 18
          Appendix V – Glossary of Terms .................................................................Page 20
          Appendix VI – Management’s Response to the Draft Report ......................Page 23
        A Budget and Additional Business Measures Would Help the
           Criminal Investigation Division Better Administer Its
                         Counterterrorism Efforts




                     Abbreviations

CI             Criminal Investigation
FBI            Federal Bureau of Investigation
IRS            Internal Revenue Service
ITIN           Individual Taxpayer Identification Number
LDC            Lead Development Center
TE/GE          Tax Exempt and Government Entities
TSC            Terrorist Screening Center
W&I            Wage and Investment
                       A Budget and Additional Business Measures Would Help the
                          Criminal Investigation Division Better Administer Its
                                        Counterterrorism Efforts




                                              Background

 In the aftermath of the terrorist attacks of September 11, 2001, Federal Government law
 enforcement agencies were mobilized to fight terrorism. Although the Federal Bureau of
 Investigation (FBI) has been designated as the lead agency, the Department of the Treasury, the
 Internal Revenue Service (IRS), and the IRS Criminal Investigation (CI) Division1 provide vital
 support to the Federal Government’s counterterrorism efforts. Investigating terrorism and
 terrorist-related financing activities is necessary to protect the United States, its citizens, and its
 allies. Table 1 shows the relationship among the goals of the Department of the Treasury, the
 IRS, and the CI Division in this area.
                     Table 1: Relationship Among Counterterrorism Goals

   DEPARTMENT OF THE                         IRS STRATEGIC                           CI DIVISION
      TREASURY GOAL                                PLAN                             ANNUAL PLAN
 Preserve the Integrity of                 Enhance Enforcement of           Operational Priority:
 Financial Systems                         Tax Laws                         Counterterrorism
 Disrupt and dismantle financial           Swiftly detect and deter         Give immediate attention to
 infrastructure of terrorists, drug        appropriate targets in areas     counterterrorism leads and continue to
 traffickers, and other                    of corporate fraud,              contribute financial investigative
 financial-related crimes.                 high-income individuals’         expertise and resources to the FBI
                                           participation in abusive         Joint Terrorism Task Forces and the
                                           schemes, malicious               United States Attorney’s Offices
                                           non-filers, international tax    Anti-Terrorism Task Forces. The
                                           avoidance schemes, and           CI Division will also work closely with
                                           terrorism-related financial      the appropriate Department of the
                                           crimes.                          Treasury offices to investigate and
                                                                            freeze accounts controlled by
                                                                            individuals, hawalas,2 or “charitable”
                                                                            organizations suspected of raising or
                                                                            facilitating the movement of funds to
                                                                            support international and domestic
                                                                            terrorism.

Source: Department of the Treasury Fiscal Year 2003-2008 Strategic Plan, IRS Fiscal Year 2005-2009 Strategic
Plan, and CI Division Fiscal Year 2008 Annual Business Plan.


 1
   See Appendix V for a glossary of terms.
 2
   A hawala is an alternative remittance system that exists outside of normal banking channels. What sets it apart
 from other remittance systems is that it is exclusively based on trust and the use of connections (e.g., family
 relationships or regional affiliations). In addition, hawalas make minimal use of negotiable instruments.
                                                                                                              Page 1
                     A Budget and Additional Business Measures Would Help the
                        Criminal Investigation Division Better Administer Its
                                      Counterterrorism Efforts



As of December 31, 2006, funds totaling $16,413,733 had been blocked due to sanctions
imposed by the Department of the Treasury Office of Foreign Assets Control. These sanctions
stopped the flow of funds to terrorist organizations such as Al-Qaida, Hamas, and Hezbollah.
The Department of the Treasury implements targeted financial measures and other forms of
sanctions against terrorists and their support networks, with the goal of stopping the flow of
money to terrorist groups, State sponsors of terrorism, proliferators of weapons of mass
destruction, drug traffickers, money launderers, and regimes that constitute a threat to the
United States. To coordinate these efforts, the Department of the Treasury established the Office
of Terrorism and Financial Intelligence in 2004. This Office develops and implements strategies
for combating terrorist financing–both domestically and internationally–and oversees the
following Department of the Treasury component offices and bureaus:
        •    Office of Intelligence and Analysis (provides intelligence support).
        •    Office of Terrorist Financing and Financial Crimes.
        •    Office of Foreign Assets Control (imposes sanctions against terrorists).
        •    Financial Crimes Enforcement Network (uses financial data to enforce the Bank
             Secrecy Act3).
        •    Treasury Executive Office for Asset Forfeiture (administers the receipt account for
             the deposit of non-tax forfeitures).
As the Federal Government agency responsible for tax administration, the IRS must assure that
Federal tax laws are not violated, including determining whether charitable and non-profit
organizations are potentially being used to divert charitable funds to support terrorist activities.
The IRS supports the Department of the Treasury’s counterterrorism efforts with the goal of
swiftly detecting and deterring appropriate targets of terrorism-related financial crimes through
work performed primarily by the Tax Exempt and Government Entities (TE/GE), the Wage and
Investment (W&I), and the CI Divisions. Terrorists and their supporters have raised funds
through a variety of conventional criminal activities such as dealing in stolen property, insurance
fraud, smuggling, money laundering, and narcotics trafficking. They have also raised funds
through the abuse of charitable and non-profit organizations involved with humanitarian relief or
religious activities.
The CI Division works with the Departments of the Treasury and Justice and other law
enforcement partners to enforce tax laws and other criminal statutes. To support the IRS’
counterterrorism goal, the CI Division investigates counterterrorism leads and contributes
financial investigative expertise and resources to the FBI-led Joint Terrorism Task Forces. The


3
 Pub. L. No. 91-508, 84 Stat. 1114 to 1124 (1970) (codified as amended in scattered sections of 12 U.S.C.,
15 U.S.C., and 31 U.S.C.). Regulations for the Bank Secrecy Act, and other related statutes, are 31 C.F.R.
Sections 103.11-103.77 (2007).
                                                                                                             Page 2
                     A Budget and Additional Business Measures Would Help the
                        Criminal Investigation Division Better Administer Its
                                      Counterterrorism Efforts



CI Division also participates in the Non-Governmental Organizations initiative established by
the Department of Justice to identify charitable entities suspected of raising funds to support
terrorist organizations. In addition, the CI Division works with the Department of the Treasury
Office of Terrorism and Financial Intelligence, Office of Foreign Assets Control, and Financial
Crime Enforcement Network to investigate individuals, charitable organizations, or underground
banking systems suspected of raising or facilitating the movement of funds to support
international and domestic terrorism. Tables 2 and 3 present CI Division enforcement data
relating to terrorism-related investigations for the last 6 fiscal years.
                                 Table 2: Terrorism Investigations

                                                              FISCAL YEAR

                                        2002       2003       2004       2005       2006       2007

    Subject Investigations Initiated      157        151        123        128         51         83

    Subject Investigations Completed       36        145        124        130        119         80

    Prosecutions Recommended               20         91         75         86         52         45

    Subjects Sentenced                         5      21         11         29         34         48
   Source: Criminal Investigation Management Information System Report INV002 (Summary by Program Area).

                   Table 3: Terrorism Investigations Involving Charities

                                                              FISCAL YEAR

                                        2002       2003       2004       2005       2006       2007

    Subject Investigations Initiated       12         20         11         23             9          10

    Subject Investigations Completed           2          8      10         21         18             24

    Prosecutions Recommended                   1          4          8      18             5          17

    Subjects Sentenced                         0          1          0          2          2           2
   Source: Criminal Investigation Management Information System Report INV002 (Summary by Program Area).

As would be expected, the CI Division resources dedicated to combating terrorist-related
activities increased after September 11, 2001. The number of CI Division special agents
committed to the Joint Terrorism Task Forces more than doubled from its
pre-September 11, 2001, level. In addition, in November 2003, the purpose of one of the
CI Division Lead Development Centers (LDC) was modified to focus exclusively on developing
leads and supporting field operations on cases involving counterterrorism. The LDC’s initial


                                                                                                      Page 3
                  A Budget and Additional Business Measures Would Help the
                     Criminal Investigation Division Better Administer Its
                                   Counterterrorism Efforts



customer base was limited to three field offices. In September 2005, the LDC’s customer base
was expanded to supporting counterterrorism investigations nationwide.
During Fiscal Year 2002 (the fiscal year immediately following September 11, 2001), the
CI Division expended 6.5 percent of its direct investigative time on cases involving
terrorist-related activities, which included participating in a special task force organized to
disrupt groups or organizations that carry out fundraising for or in support of terrorism. In
addition, CI Division special agents participated in the United States Marshals Service air
marshal program and provided security for the 2002 Winter Olympics. The CI Division’s direct
investigative time for terrorist-related investigations in Fiscal Year 2007 was 2.6 percent. The
Division no longer participates in the special task force or the air marshal program, thus the
decrease in direct investigative time from Fiscal Year 2002 to Fiscal Year 2007. In addition, the
Division has not initiated as many investigations in the last several years. The CI Division
initiated 157 cases in Fiscal Year 2002 and 83 cases in Fiscal Year 2007.
Audit work was performed at the CI Division Counterterrorism LDC in New York and the
CI Division Office of Narcotics and Counterterrorism; the TE/GE Division; the Department of
the Treasury; and the Department of Justice in Washington, D.C., during the period
November 2007 through June 2008. In addition, we contacted personnel within the
W&I Division Individual Taxpayer Identification Number (ITIN) Program Office. We
conducted this performance audit in accordance with generally accepted government auditing
standards, except for the Fieldwork Standard for performance audits governing sufficient,
relevant, and competent evidence. Most of the documents and information pertaining to the
CI Division’s involvement with counterterrorism are restricted because of their sensitive nature.
Documents such as service level agreements, memoranda of understanding, and manuals were
available by request through the CI Division.
In our opinion, during the course of the audit, the CI Division delayed our receiving requested
documents and information, stating that the delay was due to the internal vetting process required
prior to releasing documents. Although we eventually received most of the information and
documents requested, the CI Division did not provide us with some material because it indicated
that these documents contained some information considered sensitive by other agencies.
Because we are unsure whether we requested all applicable documents, the results presented in
this report are based on interviews and documents received. In addition, we did not review any
terrorist-related financing investigative case files to evaluate how well the CI Division supports
the FBI, other Federal Government agencies, and other IRS divisions through its research and
financial analysis pertaining to counterterrorism investigations. However, we interviewed
representatives from the FBI, the Department of Justice, the Department of the Treasury, and the
IRS TE/GE and W&I Divisions to obtain their opinions regarding the coordination on
terrorist-related financing cases. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.

                                                                                           Page 4
                        A Budget and Additional Business Measures Would Help the
                           Criminal Investigation Division Better Administer Its
                                         Counterterrorism Efforts



liaises with special agents assigned to the Joint Terrorism Task Forces in CI Division field
offices.
The CI Division actively participates in both the FBI-led Joint Terrorism Task Forces and the
Department of Justice Non-Governmental Organizations initiative. The FBI created the Joint
Terrorism Task Forces to strengthen efforts to combat terrorism by enhancing cooperation
among Federal, State, and local government law enforcement agencies throughout the country.
The Department of Justice created the Non-Governmental Organizations initiative to investigate
terrorist-related financing involving charitable organizations. The objective of this initiative is to
identify trends and patterns of charitable organizations through research of financial data and
other terrorist-related databases. The CI Division plays a crucial role because it is the only law
enforcement agency with access to tax return and tax return-related information, and its special
agents are considered experts at analyzing financial data. In addition, involving the CI Division
in terrorist-related financing cases allows the Federal Government to consider potential tax or
other financial-related charges in an effort to disrupt and dismantle the financial capabilities of
terrorist organizations.
Within the IRS, the TE/GE and W&I Divisions also have procedures to identify individuals and
entities potentially involved in terrorist-related financing activities. The TE/GE Division
compares information found on Return of Organization Exempt From Income Tax (Form 990)
and Application for Recognition of Exemption Under Section 501(c)(3) of the Internal Revenue
Code (Form 1023) against a terrorist watch list maintained by the Department of the Treasury
Office of Foreign Assets Control5 to identify instances in which charitable and other non-profit
organizations might be linked to terrorist activities. The W&I Division also uses the Office of
Foreign Assets Control watch list to screen individuals requesting an ITIN using an
Application for IRS Individual Taxpayer Identification Number (Form W-7). When the TE/GE
and W&I Divisions identify a potential match to the Office of Foreign Assets Control watch list,
they refer the information to the CI Division Counterterrorism LDC for further research.
Analysts at the LDC review and research the referrals and, if appropriate, initiate an
investigation.
We interviewed representatives from the FBI, the Department of Justice, the Department of the
Treasury, and the IRS TE/GE and W&I Divisions to obtain their opinions regarding the
coordination of terrorist-related financing cases. All affected parties we interviewed stated that
they have a good relationship with the CI Division and expressed no areas of concern related to
coordination issues.




5
    See Appendix IV for details.
                                                                                               Page 6
                      A Budget and Additional Business Measures Would Help the
                         Criminal Investigation Division Better Administer Its
                                       Counterterrorism Efforts



The Criminal Investigation Division Can Improve Its Ability to Assess
the Results of the Counterterrorism Lead Development Center
As of January 15, 2008, the Counterterrorism LDC employed 23 people: 1 Supervisory Special
Agent, 2 special agents, 2 senior investigative analysts, and 18 investigative analysts. The
Counterterrorism LDC focuses on terrorist financing, with an emphasis on financing through
charitable organizations. As stated in the Counterterrorism LDC manual, the Center’s purpose is
to provide effective and efficient support to ongoing counterterrorism investigations assigned to
the CI special agents in the field; identify emerging issues, trends, and patterns; act as a
deconfliction center;6 identify and forward leads through proactive research; and liaise with the
FBI Joint Terrorism Task Forces.
In March 2006, the CI Division performed an operational review of the Counterterrorism LDC
and recommended establishing a better system to measure and track its business results.
According to the LDC Supervisory Special Agent, the CI Division developed the following
quantitative measures for the Counterterrorism LDC. The number of:
        •    Leads received by the LDC (both internal and external sources).
        •    Leads assigned to an LDC analyst.
        •    Leads closed without initiating a case in the field.
        •    Leads not assigned to an LDC analyst.
        •    Leads referred to the field for initiation of an investigation.
        •    Days to complete a lead (cycle time).
        •    Deconflictions identified.
Additionally, the CI Division created a tool to capture the qualitative measures of LDC work.
Specifically, the Counterterrorism LDC sends a questionnaire to the CI Division field offices
requesting feedback regarding the quality of the analysts’ work product. The LDC also uses an
internal form to evaluate the analysts’ work.
Although the Division’s efforts to measure the work completed by the Counterterrorism LDC
will provide management with meaningful information, the Division could expand on these
measures to include tracking when the LDC’s work supports an investigation for which an
indictment, conviction, and/or sentence is obtained. CI Division management recently stated that
they are exploring ways to capture these types of information in the LDC database. This would
help the CI Division show the impact of its counterterrorism work and its accomplishments in
combating the war on terror.
Additionally, LDC management needs to ensure that accurate information is tracked in the LDC
database to provide meaningful information on achieving its goals. For example, one of the

6
 Deconfliction is when two or more agents and/or agencies are actively pursuing the same target or related targets
without knowledge of each other’s investigation.
                                                                                                            Page 7
                  A Budget and Additional Business Measures Would Help the
                     Criminal Investigation Division Better Administer Its
                                   Counterterrorism Efforts



goals developed to measure the Counterterrorism LDC’s efficiency is cycle time. According to a
document obtained from LDC management, cycle time measures the days taken by the LDC to
complete its analysis of a lead and is calculated by dividing total hours expended by eight. We
determined that 19 percent of completed leads (14 of 73) reflected no time charges in the LDC
database. This will skew the results when calculating and portraying how long it takes the LDC
to complete research on a lead or referral. By capturing the additional quantitative measures and
ensuring the accuracy of all data in the LDC database, the CI Division will be better able to
assess the LDC’s results.

Recommendations
The Director, Narcotics and Counterterrorism, CI Division, should:
Recommendation 1: Establish additional business measures to better show the impact of
counterterrorism work, including when LDC analysis results in or supports an investigation in
the field.
       Management’s Response: IRS management agreed with the recommendation and
       will establish additional business measures to better show the impact of counterterrorism
       work, including when LDC analysis results in or supports an investigation.
Recommendation 2: Improve the type of closed case information captured on the LDC
database to more accurately measure cycle time.
       Management’s Response: IRS management agreed with the recommendation and
       will develop a strategy to improve the type of closed case information that the LDC
       captures to more accurately measure cycle time.

Establishing a Budget and Tracking Its Expenditures Would Help the
Criminal Investigation Division Ensure That Counterterrorism
Activities Are Properly Funded
In December 2003, President Bush approved a one-time additional $7 million of funding for the
CI Division’s counterterrorism efforts, and the Division provided to the Department of the
Treasury documentation stating how it planned to use the funds to support its terrorist-related
efforts. However, the CI Division does not prepare a specific budget for terrorist-related
activities on an ongoing basis. In addition, CI Division management indicated that it currently
captures only limited expenditures associated with counterterrorism activities. As a result,
CI Division management cannot determine whether their efforts are properly funded.
Budgeting provides a forecast of expenditures and enables the actual cost to be measured against
the forecast. Resources are limited and must be budgeted and tracked to ensure that they are
being used in the most cost-effective manner. Having appropriate and applicable business

                                                                                          Page 8
                    A Budget and Additional Business Measures Would Help the
                       Criminal Investigation Division Better Administer Its
                                     Counterterrorism Efforts



measures, a budget, and methods to track and evaluate costs provides management with the
ability to determine whether the resources applied to an organizational priority are too many,
adequate, or too few.
While not specifically singling out the CI Division, the Congressional Research Service issued a
report on August 3, 2005, entitled Terrorist Financing: U.S. Agency Efforts and Inter-Agency
Coordination, which stated that it found no evidence that the IRS has developed a formal and
publicly accessible method for evaluating the cost-effectiveness of its contributions to the
campaign against terrorist financing. The report goes on to state that the lack of such a method
makes it difficult to address some key policy issues raised by those contributions. The report
then concludes that it is not clear to what extent the agency’s involvement complements or
duplicates work done by other agencies, yields financial information that results in the
elimination or disruption of specific sources of terrorist financing, and can be regarded as a
desirable investment of public resources.
As of January 15, 2008, the CI Division had approximately 133 employees–some on a full-time
basis–assigned to various positions supporting the war on terror through analysis and
investigations of leads and cases in an effort to disrupt and dismantle the financial capabilities of
terrorist organizations. However, the number of CI Division employees assigned to
counterterrorism has decreased by 27 percent since Fiscal Year 2005.7 CI Division management
stated that although they do not budget specifically for counterterrorism, they would apply
whatever funding is needed to support the FBI’s counterterrorism efforts. During one of our
discussions, FBI management stated their concern that as time goes on, especially if the
United States does not experience any further terrorist attacks, law enforcement entities might
move resources away from combating terrorism. Therefore, the lack of a counterterrorism
budget might increase the risk that CI Division counterterrorism resources could be moved to
other program areas because of competing priorities.
CI Division management also stated that they do not want to budget for counterterrorism because
doing so might create the impression that they are limiting the resources applied to cases
involving terrorist-related financing. Although we are unaware of any instances in which the
CI Division has not applied the resources necessary to combat terrorist-related financing
activities, we believe that establishing a budget and developing a method to track expenditures
will help Division management ensure that these activities are appropriately staffed and funded.
Also, budgeting for terrorist-related activity can be viewed as reinforcing the CI Division’s
commitment and could make it more difficult to move resources away from lead development
and investigations involving terrorist-related financing.




7
 Based on the Congressional Research Service report, the CI Division had 182 employees working on
counterterrorism investigations in Fiscal Year 2005.
                                                                                                    Page 9
                    A Budget and Additional Business Measures Would Help the
                       Criminal Investigation Division Better Administer Its
                                     Counterterrorism Efforts



of the names and other identifying information for all known or suspected terrorists. As of
April 2007, the TSC watch list contained more than 700,000 names. As of June 5, 2008, the
Office of Foreign Assets Control watch list contained approximately 3,800 names.
We previously issued a report on the TE/GE Division’s efforts to identify and work cases
involving tax-exempt organizations and/or related individuals potentially involved in
terrorist-related activities.9 In that report, we stated that the IRS was possibly missing an
opportunity to identify potential terrorist-related financing activity because Form 990
information was being screened only against the Office of Foreign Assets Control terrorist watch
list. We recommended that the Director, Exempt Organizations, TE/GE Division, in
coordination with key IRS and external stakeholders, evaluate whether more comprehensive
terrorist watch lists–including any applicable TSC information–should be used to improve the
identification of organizations and/or individuals potentially involved in terrorist-related
activities.
During a recent discussion with TE/GE Division management, we asked whether they had taken
corrective action on our recommendation of screening the Form 990 and Form 1023 data against
the TSC terrorist watch list. Management responded that they had contacted the appropriate
parties and determined that they are currently unable to do so. They explained that other
information, such as a Social Security Number and date of birth, is needed to ensure that a more
definitive match is obtained against the TSC watch list rather than relying solely on the name.
Neither Form 990 nor Form 1023 contains Social Security Numbers or dates of birth. Because
the ITIN application requires the individual’s date of birth, we believe that it would be beneficial
for the IRS to determine whether the TSC watch list could be used to screen ITIN applications to
identify individuals potentially involved with terrorist-related activities.
Although the CI Division is not involved with the W&I Division’s screening of the ITIN
information, the CI Division is the recipient of the information to be analyzed and needs to be
aware of and take into consideration how the information is being screened. The purpose of
screening ITIN application information against the Office of Foreign Assets Control watch list is
to identify individuals and entities potentially involved with terrorist-related activities. By not
screening the ITIN applications against the TSC watch list, the IRS is not using all information
available and established to identify individuals potentially involved with terrorist-related
activities. As a result, the W&I Division might not be detecting and referring to the
Counterterrorism LDC all individuals applying for ITINs who are associated with
terrorist-related financing activities.




9
 Screening Tax-Exempt Organizations’ Filing Information Provides Minimal Assurance That Potential
Terrorist-Related Activities Are Identified (Reference Number 2007-10-082, dated May 21, 2007).
                                                                                                    Page 11
                  A Budget and Additional Business Measures Would Help the
                     Criminal Investigation Division Better Administer Its
                                   Counterterrorism Efforts



Recommendation
Recommendation 4: The Chief, ITIN Program, W&I Division, should coordinate with
internal and external stakeholders to evaluate the feasibility of using applicable TSC information
in conjunction with the Department of the Treasury Office of Foreign Assets Control watch list
during the screening of ITIN applications to improve the identification of individuals potentially
involved with terrorist-related activities.
       Management’s Response: IRS management agreed with the recommendation. They
       will determine and then coordinate with the appropriate internal and external stakeholders
       to evaluate the feasibility of vetting ITIN applications against different terrorist watch
       lists, such as the TSC and Office of Foreign Assets Control lists, to improve the
       identification of individuals potentially involved with terrorist-related activities.




                                                                                          Page 12
                        A Budget and Additional Business Measures Would Help the
                           Criminal Investigation Division Better Administer Its
                                         Counterterrorism Efforts



                                                                                        Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this audit was to evaluate the CI Division’s1 efforts to assist in the
identification and investigation of terrorist-related financing activities. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on this
audit objective. Most of the documents pertaining to counterterrorism are restricted because of
their sensitive nature. However, some documents were made available only by request through
the CI Division. Therefore, our review was limited because all documents requested from the
CI Division were not received (some documents contained information considered sensitive by
other agencies), and we are unsure whether we requested all applicable documents. Our inability
to secure all documents potentially limits our ability to fully assess the CI Division’s efforts to
combat terrorist-related financing activities.
To accomplish the audit objective, we:
I.         Determined the roles and responsibilities, including resource commitments, of the
           Department of the Treasury, the IRS, and the CI Division in combating terrorist-related
           financing activities.
           A. Interviewed applicable Department of the Treasury, IRS, and CI Division
              management and determined their roles and responsibilities in combating
              terrorist-related financing activities involving organizations and/or individuals.
           B. Reviewed Department of the Treasury, IRS, and CI Division strategic/annual plans,
              directives, and policies and determined their goals and objectives.
           C. Determined CI Division resource commitments (funding and staffing) allocated to
              combating terrorist-related financing activities.
II.        Evaluated how the CI Division coordinated with other IRS divisions to identify and
           investigate cases involving terrorist-related financing activities.
           A. Interviewed applicable management of the TE/GE and the W&I Divisions and
              determined how they interact with the CI Division on cases involving terrorist-related
              financing.
           B. Reviewed the CI Division Counterterrorism LDC’s procedures and the Memorandum
              of Understanding between the CI Division and W&I Division relating to the
              identification and processing of possible terrorist-related financing cases.

1
    See Appendix V for a glossary of terms.
                                                                                               Page 13
                  A Budget and Additional Business Measures Would Help the
                     Criminal Investigation Division Better Administer Its
                                   Counterterrorism Efforts



III.   Evaluated how the CI Division assisted and coordinated with other government agencies
       to identify and investigate cases involving terrorist-related financing activities.
       A. Interviewed applicable CI Division management and determined their roles and
          responsibilities for the identification and investigation of terrorist-related financing
          cases received from the various task forces and obtained management’s opinion as to
          the effectiveness of these task forces.
       B. Interviewed CI Division and external personnel involved with the Joint Terrorism
          Task Forces, Non-Governmental Organizations initiative, Office of Foreign Assets
          Control, Financial Crimes Enforcement Network, and Office of Terrorist Financing
          and Financial Crimes and obtained their feedback on the effectiveness of CI Division
          involvement.
       C. Determined the procedures developed and the processes followed by the CI Division
          to identify and work terrorist-related financing cases in coordination with external
          agencies when addressing terrorist-related financing cases.
       D. Determined how the CI Division obtained its terrorism-related financing cases when
          they are identified as part of the Joint Terrorism Task Forces or the
          Non-Governmental Organizations initiative.
       E. Determined how the CI Division evaluates the effectiveness of the Counterterrorism
          LDC to analyze and develop leads.
IV.    Obtained statistical reports from the CI Division regarding its efforts on cases involving
       terrorist-related financing activities for the period October 1, 2001, through
       September 30, 2007. We also obtained an extract of the Counterterrorism LDC database
       that contained case information for the period September 7, 2006, through
       December 28, 2007.
       A. Identified how information involving terrorist-related financing activities is tracked
          by the CI Division.
       B. Secured the statistical information for terrorist-related cases for Subject Investigations
          Initiated, Subject Investigations Completed, Prosecutions Recommended, and
          Subjects Sentenced.
       C. Determined the CI Division’s business measures and financial outcomes regarding
          terrorist-related financing activities.
       D. Obtained a copy of the Counterterrorism LDC database for the period
          September 7, 2006, through December 28, 2007. We used these data to identify the
          population of leads developed and support provided to the field. We considered the
          reliability of the data contained in the Counterterrorism LDC database to be
          undetermined in terms of completeness and accuracy because we did not have the

                                                                                           Page 14
       A Budget and Additional Business Measures Would Help the
          Criminal Investigation Division Better Administer Its
                        Counterterrorism Efforts



source documents available to make that determination. However, in our opinion,
using the data for informational purposes did not weaken our analysis or lead to an
incorrect or unintentional message.




                                                                              Page 15
                 A Budget and Additional Business Measures Would Help the
                    Criminal Investigation Division Better Administer Its
                                  Counterterrorism Efforts



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Carl L. Aley, Director
Jeffrey M. Jones, Director
Diana M. Tengesdal, Audit Manager
Joseph P. Smith, Lead Auditor
Janice A. Murphy, Senior Auditor
Janis Zuika, Senior Auditor




                                                                                  Page 16
                 A Budget and Additional Business Measures Would Help the
                    Criminal Investigation Division Better Administer Its
                                  Counterterrorism Efforts



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Criminal Investigation SE:CI
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Operations Policy and Support, Criminal Investigation SE:CI:OPS
Deputy Director, Operations Policy and Support, Criminal Investigation SE:CI:OPS
Director, Narcotics and Counterterrorism, Criminal Investigation SE:CI:OPS:NC
Deputy Director, Narcotics and Counterterrorism, Criminal Investigation SE:CI:OPS:NC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Director, Communications and Liaison, Tax Exempt and Government Entities Division
       SE:T:CL
       Director, Planning and Strategy, Criminal Investigation SE:CI:S:PS
       Senior Operations Advisor, Wage and Investment Division SE:W:S:W




                                                                                   Page 17
                      A Budget and Additional Business Measures Would Help the
                         Criminal Investigation Division Better Administer Its
                                       Counterterrorism Efforts



                                                                                                  Appendix IV

     Terrorist Screening Center and Office of Foreign
          Assets Control Watch List Information

Terrorist Screening Center Watch List
On September 16, 2003, Homeland Security Presidential Directive-6 was signed, directing that a
center be established to consolidate the Federal Government’s approach to terrorism screening
and to provide for the appropriate and lawful use of terrorist information in screening processes.
As a result, the Attorney General, the Director of the Central Intelligence Agency, and the
Secretaries of the Departments of State and Homeland Security signed a Memorandum of
Understanding creating the TSC and placed it within the FBI in the Department of Justice. The
TSC began operations on December 1, 2003, and is charged with consolidating and maintaining
the United States Government’s terrorist watch list.1 The Secretaries of the Departments of
Defense and the Treasury signed an addendum to the Memorandum to join the partnership
supporting the TSC in August 2004. The TSC terrorist watch list currently contains the names of
more than 700,000 individuals suspected of being involved in terrorist activities.
The TSC watch list contains the names and other identifying information for all known or
suspected terrorists. A known or suspected terrorist is an individual known or appropriately
suspected to be or have been engaged in conduct constituting, in preparation for, in aid of, or
related to terrorism. The TSC watch list contains information on known or suspected terrorists
only. It does not contain information on persons who have no nexus to terrorism. The TSC
watch list was created to be a single, comprehensive database of known or appropriately
suspected terrorists.




1
  The TSC was assigned responsibility for consolidating terrorist screening information to be used by Federal, State,
local, territorial, tribal, and foreign governments and private sector organizations across the country and around the
world. The TSC terrorist watch list is a consolidated database that contains all information permitted by law on the
identities of individuals known or appropriately suspected to be involved in terrorist activities obtained from these
entities.
                                                                                                             Page 18
                      A Budget and Additional Business Measures Would Help the
                         Criminal Investigation Division Better Administer Its
                                       Counterterrorism Efforts



Office of Foreign Assets Control Terrorist Watch List
The Department of the Treasury Office of Foreign Assets Control terrorist watch list, which is a
document available for public viewing, lists individuals or groups known to be terrorists and
designated by the Department of the Treasury Office of Foreign Assets Control pursuant to
Executive Orders 12947,2 13099,3 and 132244 or as a Foreign Terrorist Organization.5 Persons of
the United States are prohibited from conducting unauthorized transactions or having other
dealings with or providing services to the designated individuals or entities. Any property or
property interest of a designated person that comes within the control of a Unites States person is
blocked by that individual and must be reported to the Office of Foreign Assets Control.
The difference between the TSC watch list and the Office of Foreign Assets Control terrorist
watch list is that the TSC watch list contains the names of known and suspected terrorists and the
Office of Foreign Assets Control terrorist watch list contains names of organizations, countries,
and some individuals whose assets have been frozen because they have committed or pose a
significant risk of committing acts of terrorism.




2
  Executive Order 12947, signed January 13, 1995, prohibits transactions with terrorists who threaten to disrupt the
Middle East peace process.
3
  Executive Order 13099, signed August 20, 1998, amended Executive Order 12947 to take additional steps with
respect to grave acts of violence committed by foreign terrorists who disrupt the Middle East peace process.
4
  Executive Order 13224, signed September 23, 2001, blocks property and prohibits transactions with persons who
commit, threaten to commit, or support terrorism.
5
  On April 24, 1996, Congress passed the Antiterrorism and Effective Death Penalty Act of 1996, Pub. L. 104-132,
110 Stat. 1247-1258 (the Antiterrorism Act). Section 302 of the Antiterrorism Act (8 U.S.C. Section 1189)
authorizes the Secretary of State, in consultation with the Secretary of the Treasury and the Attorney General, to
designate organizations meeting stated criteria as foreign terrorist organizations, with prior notification to Congress
of the Secretary’s intent to designate. Section 303 of the Act (8 U.S.C. Section 2339B) makes it a crime for persons
within the United States or subject to United States jurisdiction to knowingly provide material support or resources
to a foreign terrorist organization designated under Section 302.
                                                                                                              Page 19
                   A Budget and Additional Business Measures Would Help the
                      Criminal Investigation Division Better Administer Its
                                    Counterterrorism Efforts



                                                                                     Appendix V

                                 Glossary of Terms

Congressional Research Service – Serves shared staff to Congressional committees and
members of Congress. Congressional Research Service experts assist at every stage of the
legislative process–from the early considerations that precede bill drafting, through committee
hearings and floor debate, to the oversight of enacted laws and various agency activities.
Counterterrorism Lead Development Center – Provides effective and efficient support to
ongoing counterterrorism investigations assigned to the CI Division special agents in the field;
identifies emerging issues, trends, and patterns; acts as a deconfliction center; identifies and
forwards leads through proactive research; and liaises with the FBI Joint Terrorism Task Forces.
Criminal Investigation Division – Serves the American public by investigating potential
criminal violations of the Internal Revenue Code and related financial crimes in a manner that
fosters confidence in the tax system and compliance with the law.
Criminal Investigation Management Information System – A database that tracks the status
and progress of criminal investigations and the time expended by special agents.
Direct Investigative Time – Time spent by special agents conducting investigations and other
law enforcement activities.
Field Offices – Offices within the five CI Division geographical areas throughout the country
with boundaries that range from a portion of a single State to inter-State areas. Each field office
has a Special Agent in Charge to direct, monitor, and coordinate the criminal investigation
activities within that office’s area of responsibility. Several post-of-duty cities are located within
each field office.
Financial Crimes Enforcement Network – An office of the Department of the Treasury that
enhances United States national security, deters and detects criminal activity, and safeguards
financial systems from abuse by promoting transparency in the United States and international
financial systems.
Individual Taxpayer Identification Number – A nine-digit number issued by the IRS to
individuals who are required for United States tax purposes to have a Taxpayer Identification
Number but who do not have–and are not eligible to obtain–a Social Security Number.
Investigative Analyst – Collects, develops, and analyzes information and disseminates the
information via written reports and oral presentations that substantiate or refute information
regarding criminal investigations underway. An investigative analyst identifies and investigates
separate issues that might grow from assigned cases (or from proactive efforts).

                                                                                              Page 20
                   A Budget and Additional Business Measures Would Help the
                      Criminal Investigation Division Better Administer Its
                                    Counterterrorism Efforts



Joint Terrorism Task Forces – Small cells of highly trained, locally based, passionately
committed investigators, analysts, linguists, and other specialists from dozens of United States
law enforcement and intelligence agencies.
Non-Governmental Organizations – Any non-profit, voluntary citizens’ group that is
organized on a local, national, or international level. Task-oriented and driven by people with a
common interest, Non-Governmental Organizations perform a variety of service and
humanitarian functions, bring citizen concerns to Governments, advocate and monitor policies,
and encourage political participation through provision of information.
Office of Foreign Assets Control – An office of the Department of the Treasury that
administers and enforces economic and trade sanctions based on United States foreign policy and
national security goals against targeted foreign countries, terrorists, international narcotics
traffickers, and those engaged in activities related to the proliferation of weapons of mass
destruction.
Office of Intelligence and Analysis – An office of the Department of the Treasury that is
responsible for the receipt, analysis, collation, and dissemination of foreign intelligence and
foreign counterintelligence information related to the operation and responsibilities of the
Department of the Treasury.
Office of Terrorist Financing and Financial Crimes – An office of the Department of the
Treasury that works across all elements of the national security community–including the law
enforcement, regulatory, policy, diplomatic, and intelligence communities–and with the private
sector and foreign governments to identify and address the threats presented by all forms of illicit
finance to the international financial system.
Prosecutions Recommended – Subject investigations that resulted in the determination of
prosecution potential referred to the Department of Justice or to a United States Attorney’s
Office.
Service Level Agreement – A formally negotiated agreement between two or more parties
within the IRS.
Special Agent – A CI Division law enforcement employee who investigates potential criminal
violations of the internal revenue laws and related financial crimes.
Subject Investigations Completed – The number of subject investigations that have been
discontinued or recommended for prosecution.
Subject Investigation Initiated – Special agents analyze information to determine if criminal
tax fraud or some other financial crime might have occurred. This preliminary process is called
a “primary investigation.” The special agent’s front-line supervisor reviews the preliminary
information and makes the determination to approve or decline further development of the


                                                                                            Page 21
                  A Budget and Additional Business Measures Would Help the
                     Criminal Investigation Division Better Administer Its
                                   Counterterrorism Efforts



information. If the supervisor approves further development of an investigation, a subject
investigation is initiated.
Subjects Sentenced – The number of individuals sentenced by a judge for committing a tax,
tax-related, or other financial-related crime.




                                                                                         Page 22
     A Budget and Additional Business Measures Would Help the
        Criminal Investigation Division Better Administer Its
                      Counterterrorism Efforts



                                                   Appendix VI


Management’s Response to the Draft Report




                                                          Page 23
A Budget and Additional Business Measures Would Help the
   Criminal Investigation Division Better Administer Its
                 Counterterrorism Efforts




                                                     Page 24
A Budget and Additional Business Measures Would Help the
   Criminal Investigation Division Better Administer Its
                 Counterterrorism Efforts




                                                     Page 25
A Budget and Additional Business Measures Would Help the
   Criminal Investigation Division Better Administer Its
                 Counterterrorism Efforts




                                                     Page 26
